     DRG 89: SIMPLE PNEUMONIA AND

                PLEURISY





                 RICHARD P. KUSSEROW
                  INSPECTOR GENERAL




OAI. 12-801140                         JUNE 1989

                         Contract Information



Contractor                               Proiect Offcer
BOTEC Analysis Corporation               David Hsia

36 JFK Street                            Health Care Branch
Cambridge, MA 02138                      Offce of Inspector General
                                         330 Independence Ave., SW
                                         Washington , D. C. 20201
Contract
HHS- lOO- 88-0019
                                  EXECUTIVE SUMMARY





BACKGROUND

Diagnosis related group (DRG) 89 occurred fourh most commonly in Fiscal Year (FY) 1987.
The 327, 645 DRG 89 bils represented 3. 7 percent of al Medicare discharges. The National
DRG Validation Study suggested DRG 89 accounted for a substatial porton of the annual
overpayment to hospitals due to erroneous codg of Medicare bils.


FINDINGS

     The DRG 89 had a 16. 5 percent error rate, lower than the 18. 6 percent for all DRGs.

     However , 84. 5 percent of these errors resulted in overpayments to the hospitals. This
     proponion significantly exceeded the 59. 7 percent for all DRGs.

     The large number of discharges assigned to DRG 89 and the high proponion of
     overpayments resulted in hospitals receiving a projected $20. 8 milion in PPS
     overpayments in FY 1987.



     In the majority of errors, the discharge grouped to another DRG pertaining to the
     respiratory system. The DRG 96 (bronchitis and asthma) should have substituted for
     DRG 89 in 40. 3 percent of errors.

     The DRG 89 had double the general rate of poor quality care. Of poor qualty
     discharges, a disproponionate 57. 1 percent came from the non-specific ICD-
     codes 485 or 486.


RECOMMENDATIONS

     The Health Care Financing Admiistration (HCFA) should diect the peer review
     organizations to educate hospitals and physicians about distinguishing between (1)
     pneumonia and (2) bronchitis-asthma as principal diagnoses.

     The HCFA should review the non-specific ICD- CM codes 485 and 486 in DRG 89
     bils for quality of care.




The HCFA concurs with these recommendations.
                                                  . . . . . . . . .......... .. .....
                                                                                 . .. .. .....
                                                                                           .. .. ... .. .... .
                                                                                                           ..
                    . . . . . . . . . . . . . . . . . . . . . . . . . . . .. .. .. .. .. .. .. .. .. .. .. .    ... . . . . .............. .
                                                                                                           . .. .  ..
                                                                                                                   . .. ... .. .. .. .. .. .. .. .
                                                                                                                .. .                             ..
                                                                                                                                                 . .. ... .   . .. .
                                                                                                                                                          .. .. .. .. .. .




                                                        TABLE OF CONTENTS

EXECUTIVE SUMMARY

INTRODUCTION

       Background
       PPS vulnerabilties. . .
       PPS clais processing. 

       DRG 89 ............................................................

       Methodology

FINDINGS.




       Sample characteristics
       DRG assignment errors
       Dirction of errors
       Source of errors
       Reasons for assignment errors. . .
       Financial effects. . . . . .
       Correct DRG assignments. . . . . . .
       Clinical review results. . . .

RECOMMENDATIONS..




APPENDICES

Appendix A- I: DRG 89 discharges from PPS hospitals. . . . . . . . . . . . . . . . . . . . . . . . . .
Appendix A- 2: DRG 89 sampling frame
Appendix A- 3: DRG 89 hospital demography. . . . . . . . . . . .
Appendix A- 4: DRG 89 hospita demography comparson
Appendix A- 5: DRG 89 patient demography .
Appendix A- 6: DRG 89 patient demography comparson. . .
Appendi B- 1: DRG 89 errors. . .
Appendix B- 2: DRG 89 error rate comparson. . . .
Appendi B- 3: DRG 89 errors by patient demography
Appendix C- l: DRG 89 diection of error. . . .
Appendix C- 2: DRG 89 diection of error comparson
Appendix C- 3: DRG 89 direction of error by patient demography
Appendix D- l: DRG 89 hospital deparment making error. .
Appendix D- 2: DRG 89 hospital deparment makng error comparson
                                                                                        '."
                                                   . . . . . . . . . . . . . . . . . . . . . . . . . . .     '" .
                                                                                                       ' . . . . . .




Appendix D- 3: DRG 89 hospital deparment makng error by patient
                         demography. . . . . . . . . . . . . . . .
Appendix E- l: DRG 89 reasons for errors. . .
Appendix E- 2: DRG 89 reasons for errors by hospita demography
Appendix E- 3: DRG 89 reasons for errors comparson
Appendix E- 4: DRG 89 reasons for errors by patient demography. . . .
Appendix F- l: DRG 89 corrected relative weights
AppendixF- 2: DRG 89 corrected reimbursement ..'."
Appendi F- 3: DRG 89 projected cost of errors
Appendix G- l: Correct MDCs for DRG 89 errors. .
Appendix G- 2: Correct DRGs for DRG 89 errors
Appendix G- 3: ICD- CM codes from correct DRG 89 bils                     . . . . . . . . . . . . . . I . . . . . .


Appendix H- l: DRG 89 clinical review. . . . . .
Appendix H- 2: DRG 89 clinical review comparson. .
                                     INTRODUCTION


BACKGROUND


On October 1 , 1983, the Health Care Financing Admistration (HCFA) began implementing a
new system of payment for inpatient hospital services under the Medicare program. The pro­
spective payment system (PPS) replaced the cost- based reimbursement system. Congress
mandated this change because of rapid growth in health care costs, paricularly the increase in
payments for inpatient expenses under Medicare.

Under PPS, hospitals received a pre-established payment for each discharge, based upon the
diagnosis related group (DRG) to which the discharge is assigned. The PPS classifed dis­
charges into clinically coherent groups which used simiar amounts of hospital resources,
based on varables such as diagnosis; evaluation and treatment procedures; and patient age
sex , and discharge status. Each of the 473 DRGs had an associated relative weight, which rep­
resented the average cost for its hospitaizations as compared to the average cost for all hospi­
talizations. The hospita received this payment, independent of the actual length of
hospitalization or cost of treatment for the individual patient. The hospita retained any sur­
plus from patients consuming less than the expected amount of resources and suffered losses
on those patients consuming more.

The shift from cost- based, retrospective reimbursement to prospective payment constituted
one of the most dramatic changes in health care reimbursement since the creation of Medicare.
A fixed payment per discharge induced hospitals to implement economies and reduce unneces­
sar services. The total PPS payments to the hospitals provided the same resources for patient
care as cost reimbursement. In effect, PPS reversed the financial incentives for hospitals.
Where the cost-reimbursement system rewarded longer hospital stays and more costly treat­
ments for Medicare patients , PPS rewarded earlier discharges and less costly procedures. One
of the first consequences of the new payment system came as a drop in average length of hos­
pital stay for Medicare patients.

PPS Vulnerabilties

The Of.ce of Inspector General (OIG) conducted the National DRG Validation Study to sur­
vey the genera accuracy of DRG assignment and quality of care performed by hospitals under
PPS. It examned assignment accuracy in over 700 medical records and established that PPS
assignment errors resulted in $300 millon in overpayments to hospitas. The majority of over­
payments derive from assignment errors affecting a small number of DRGs. This inspection
examnes assignment accuracy in one of the DRGs identified as having the greatest impact on
overpayments.
The PPS may create financial incentives for hospitas to manipulate or " game " the payment
system in order to receive maximum Medicare reimbursement. The PPS gamng takes two
                                                     strategies adhere to codg rules, but
pricipal forms: optimization and creep. " Optimization "
maximize hospita reimbursements by selecting the most expensive among viable alternative
pricipal diagnoses or adding more secondar diagnoses. The PPS permts optimization.

 Creep " results from codg practices which do not conform to coding rules. Sources of DRG
creep include:




      Mis-specification of the narative diagnoses and procedures.
      Miscodng when assigning ICD- CM codes to the narative diseases or procedures.
      Resequencing of the order of the narative diagnoses to substitute a secondar diagnosis
      for the correct principal diagnosis.

Auditing and review practices which identify cases in which coding rules are misapplied or ig­
nored address the problem of ilegal DRG creep. Optimization , on the other hand, flows from
the basic incentive strcture of the PPS system. To protect the integrty of PPS and maintain
quality of care, Congress established peer review organizations (PROs) to monitor hospital ac­
tivities.

PPS Claims Processing

Under PPS, the hospita files a claim for Medicare reimbursement upon discharge of a covered
patient. At the time of discharge , the attending physician attests to the principal diagnosis (de­
fined by the Uniform Hospital Discharge Data Set as " that condition established after study to
be chiefly responsible for occasioning the admission of the patient to the hospital for care
secondar diagnoses, and procedures (diagnostic and therapeutic) provided. The hospital
translates the narative diagnoses of the physician s attestation statement into numeric codes
based on the International Classification of Diseases , Ninth Revision , Clinical Modfication
(ICD- CM), and prepares a claim. Fiscal intermediar (PI) organizations, workig under
contrct with HCFA , enter the hospital' s codes into the GROUPER computer program which
assigns the appropriate DRG for reimbursement.

Hospital reimbursement is calculated by multiplying the "relative weight " of each DRG cate­
gory by a standardized amount, as modified by certain hospital-specific factors. The relative
weight for al DRGs theoretically averages 1.000. In Fiscal Year (FY) 1985, the standardized
amount for a relative weight of 1. 00    was $2985 for urban hospitals and $2381 for rural hos­
pitals. The relative weight of each DRG vares above or below 1.     00  according to the aver­
age amount of hospita resources used by patients in that diagnostic group. The higher the
relative weight , the greater the reimbursement. Mis-assignment of the ICD- CM categories
or erroneous assignment or sequencing of patient diagnoses , can have significant financial im­
plications.
                                         ..          --- ----
                                                         """ ----      ---



DRG 89

This study examnes erroneous assignment in DRG 89: Simple Pneumonia and Pleursy.
DRG 89 appears paricularly vulnerable to mis-assignment due to superfcial symptomatologi­
cal simlarties with other pulmonar disorders and its high number of yearly discharges. In
FY 1985, DRG 89 had a relative weight of 1.0914 , compared to the average for all medical
(non-surgical) DRGs of 0. 9404. Discharges, mean payment, and reimbursement have all in­
creased over time.
                             DRG 089: ALL PPS discharges

                                                                             Relative Weight
                   3 f- .                           A-                 --*-- Discharges (100 K)





                   2 /-;7                                                    Charges ($106 M)

                                                                       --0- Payment ($100 M)


                                                                             Mean payment ($1 K)



                      (J ­

                     1984         1985          1986            1987
                                     Fisca I Year


Except for one case of pleurisy, all sample discharges listed an ICD- CM code for pneumo­
nia as the principal diagnosis. Medical textbooks describe pneumonia as an inflammation
deep in the lungs (i. e., in the bronchioles and alveoli), almost always due to an acute infection.
The pathogen usualy causes the patient to have a fever. Gram stan of sputum , white blood
cell count, and chest X-ray should identify pneumonias suspected from medical history or
physical examnation. Treatment vares considerably dependig upon the causal organism.

In some ways, DRG 89 is symptomaticaly similar to DRG 96 (bronchitis and asthma), which
had a relatively low relative weight (0. 7913). Bronchitis describes excessive mucus produc­
tion , usually secondary to cigarette smokig; while asthma describes narowing of the upper
aiays due to increased sensitivity to allergens. In either case, the patient need not have an
infection and therefore no fever, although infection may co-exist with bronchitis or asthma.
The fmdings from physical examination and chest X-ray differ from those of pneumonia.
Treatment of these conditions differs from pneumonia therapy. A physician should have no
difficulty distiguishing pneumonia from other diseases and instituting an appropriate remedy.
METHODOLOGY


This inspection examned DRG 89 discharges drawn from the National DRG Valdation
Study. It used a stratified two-stage sampling design based on hospitals to select medical re­
cords for review. The first stage used simple random sampling without replacement to select
up to 80 hospitals in each of three stratum based on bed size: less than 100 beds (small), 100
to 299 beds (medum) and 300 or more beds (large). The second stage of the design employed
systematic random sampling to select up to 30 Medicare cases from each of the hospitals for
Medicare discharges between October 1, 1984 and March 31 , 1985.

The OIG contracted with the Health Data Institute (HDI) of Lexington , Massachusetts to
reabstract the entie sample of records. Upon receipt, HDI " blinded" the ICD- CM codes by
coverig them, and assigned an identification number to each record. An Accredited Record
Technician or Registered Record Administrator proficient in ICD- CM coding reviewed the
entie record to identify the principal diagnosis, other diagnoses , and procedures indicated by
the attending physician in the narative attestation form.

Any records which did not suppon the assigned DRG classification were referred to physician
reviewers. The physician reviewers designated the correct Uniform Hospital Discharge Data
Set (UDS) principal diagnosis, and additional diagnoses and/or procedures as substantiated
by the patient records. The GROUPER computer program processed the reabstracted ICD­
CM codes to determne correct DRGs. A full discussion of the methodology and findings of
the record review appears in the final repon on the National DRG Valdation Study.

The OIG contracted with BOTEC Analysis of Cambridge, Massachusetts to examne data for
DRG 89 in greater detail , to identify sources of assignment errors, and to make recommenda­
tions for recovery of overpayments. On November 7, 1988, the OIG transmitted a draft ver­
sion of this inspection to HCFA. The HCFA returned comments about it on December 15,
1988. The OIG has modified this final report to take the HCFA suggestions into account.
                                          FINDINGS


SAMPLE CHARACTERISTICS



In FY 1985, 288, 067 of the 8.3 milion prospective payment discharges (3.4 percent) grouped
to DRG 89. According to estimates from the National DRG Validation Study, they came
equally from all bed size strata, with the large hospitals ' greater frequency of tota discharges
balancing the higher rate of DRG 89 discharges in small hospitals. In the first half of FY
1985, the 239 hospitals selected in stage one of the sample design (the sampling frame) biled
for 222 396 discharges of which 8, 250 came from DRG 89 (3. 7 percent). The stratification
into bed size classes reflected the larger discharge volume of large hospitals. Of the 7,050
medical records selected in stage two of the sample design , 351 came from DRG 89 (5. 0 per­
cent).
                                Discharges by hospital size

                                                                             .( 100

                                                                      . 100- 299
                                                                      !2 300+


                   ORG 089                      All ORGs



Additionally, the two-stage sample design permts calculation of separate results for Medicare
beneficiares (the probabilty of something happening to a person) and hospitals (the odds of
an eveRt at a parcular hospital). The appendices, tables, and chars therefore report individ­
ual totals weighted by both discharges and hospitals.

Smal hospitas have a significantly higher rate of DRG 89 bils (Chi-square 54. 9, 1 df,
pc:O. OOl). They contrbute just over one- hal of the DRG 89 discharges in this sample, while
medium and large hospitals each contrbute approximately one- quarer of the discharges.
Weighted to reflect the underlying Medicare population , however, DRG 89 discharges come
in approximately equal proporton from small , medium , and large hospitals. Comparson of
DRG 89 discharges with all projected PPS discharges for FY 1985 reveals that small hospitals
submitted an unusualy high prop onion of cases paid as DRG 89 (Chi square 43. 5, 2 df,
pc:O. OOl).
                                   Hospital demography

                                                                                    Yes
             DRG 089: Urban

                All DRGs: Urban



           DRG 089: Teaching

           All DRGs: Teaching



                DRG 089: Profit

                All DRGs: Profit

                                                                         100
                                       Percent of discharges





The majority of DRG 89 discharges, weighted to correspond to the Medicare population
come from rual (Mantel- Haenszel Chi-square 10. 75, 1 df, p-:0. 005), nonteaching (Mantel-
Haenszel Chi-square 3. 6, 1 df, p=0. 06) and nonprofit (Mantel- Haenszel Chi-square 0. , 1 df
p=OA) hospitas. However, only rual location attained significance when controllng for hos­
pital size. DRG 89 discharges paraleled the general trends of the National DRG Validation
Study. Rural and nonteaching hospitals accounted for a greater but non-significant share of
discharges assigned to DRG 89.

Discharges in DRG 89 (discharge-weighted) averaged slightly older in age (T-test 7.50, 350
df, p-:0. 001) and had a higher proportion of males (Mantel- Haenszel Chi-square 4. , 1 df,
p-:0. 05) than discharges in the National DRG Validation Study. Discharges assigned to DRG
89 had a longer average length of hospital stay, but were paid less (T-test -   350 df,
pO. 001) than the average reimbursement for all discharges included in the National DRG Vali­
dation Study. DRG 89 patients exhibited approximately the same rate of mortlity. When ad­
justed by hospital weights, the relationships remain the same.


DRG ASSIGNMENT ERRORS


Overal, 16. 5 percent of discharges paid as DRG 89 changed to a different DRG after
reabstraction. Assignment errors occured less frequently in discharges paid as DRG 89 than
the average for all DRGs in the National DRG Validation Study. However, this difference did
not attain significance (Mantel- Haenszel Chi-square 2. 3,      1 df, p-:0. 25).   This fmding applied
across al hospita bed     sizes. Within the DRG 89 sample, however, discharges from smal hos­
pitals made assignment errors most frequently, but not at a significantly higher rate (Chi-
square 2. 68, 2 df, p-:0. 5). This trend paralels the National DRG Validation Study, which
found that small hospitals made more assignment errors and at a significant rate.
                                         Coding error rate
                   Percent of discharges



                                                                             DRG 89

                                                                        IZ All DRGs




                                    0( 100    100- 299     300+
                                              Bed size


Appendix B- 2 reveals no significant differences in hospital location (Chi-square 0.       , 1 df
pc:0. 9), teaching status (Chi-square 0. , 1 df, pc:0. 75), or profit status (Chi-square 0. , 1 df
pc:0. 75) associated with assignment accuracy for DRG 89 when controlling for bed size. The
National DRG Validation Study also finds that for al DRGs , assignment accuracy has no sig­
nificant association with hospita characteristics.

Patient demographics indicate that bils erroneously paid as DRG 89 covered a subsample of
patients having a higher age, more males, and a substantially lower monalty rate than for
those correctly assigned. Discharges assigned correctly and incorrectly had approximately the
same length of hospital stay, but the incorrectly-assigned discharges were reimbursed at a
higher average rate of payment.


DIRECTION OF ERRORS


Weighted by discharges, fully 86. 0 percent of errors in the DRG 89 sample resulted in over­
payments to hospitas. This proponion significantly exceeds the 59. 7 percent of National
DRG Validation Study (Mantel- Haenszel Chi-square 18. , 1 df, pc:0. 005). The majority of
errors in al sampling strata resulted in overpayments to hospitals. Small hospitals had the
highest proporton of overpayments for DRG 89, while mid-sized hospitals had the lowest
(Chi-square 3. 70, 2 df, pc:0. 25).
                                  Direction of coding errors
                    Rate and direction


                                                                          DRG 89

                                                                          DRG 89

                                                                     LZ All DRGs
                                                                     fZ All DRGs




                                   0( 100   100- 299     300+
                                            Bed size


Examned by hospital location and type: rural , teaching, and for- profit hospitals all displayed
rates of overpayment consistent with those in the National DRG Validation Study. Urban , non­
teaching and nonprofit hospitas, however, each measured overpayment rates above 84. 0 per­
cent, approximately 30 percentage points higher than in the National DRG Validation Study.
The proporton of overpayments (84. 5 percent) combined with the 16. 5 percent rate of error
gives DRG 89 had an effective overpayment rate of 13. 9 percent as compared to 11.1 percent
in the National DRG Validation Study.

Patient characteristics difered substantially between discharges for which hospitals overpaid
and underpaid themselves. As shown , discharges assigned to a higher relative weight (over­
paid) by hospitals had a higher average age, proportion of males, and rate of monaity. Over­
paid discharges from large hospitals had a lower average length of stay and payment. Among
discharges from small and mid-sized hospitals , the reverse pattern prevailed: higher lengths of
stays and payments.


SOURCE OF ERRORS


The majority of errors in DRG 89 discharges occured when hospitals incorrectly coded the
discharge as DRG 89 and biled it accordingly. Only three out of 62 errors resulted when the
medical records deparment correctly indicated a different diagnosis, but the hospital biled it
as DRG 89 anyway.
REASONS FOR ASSIGNMENT ERRORS


Mis-specification errors by the attending physician (i. , wrting down the wrongmagnosis or
procedure) caused the majority of errors in assignment to DRG 89. When examned using an
exclusive analysis (identifying the fIrst error to occur chronologically), physicians mis-speci-
fIed the pricipal diagnoses or secondar diagnoses in 70. 9 percent of discharges. Mis-specifi-
cation also constituted the single largest source of error in the National DRG Validation Study.

                                Reasons for coding errors

                                                                          Miss ecificatio

                                                                          Miscoding

                                                                          Resequencing

                                                                          Other




                 ORG 89               Nationa I ORG Study


Resequencing of the pricipal and secondar diagnoses by the hospital accounted for nearly
one- quarer of the errors in the DRG 89 sample, the second largest category of errors. In
cases did the medical records deparent enter the incorrect numeric code for a correct nara­
tive diagnosis. Also, a small number of " other" errors occurred.

Appendix E- 2   compares reasons for coding errors by hospital characteristics. Narative errors
by physicians caused the majority of errors in al strata. Resequencing errors occured paricu­
larly frequently in small hospitals, and " other" errors occured with grater frequency at mid­
size hospitas. Hospitals exhibited simiar reasons for errors by location and type, with a few
exceptions. Resequencing errors happened paricularly frequently in discharges from for-
profit hospitals and " other" errors occurred with greater frequency in discharges from urban
hospitals and teaching facilities.

As shown in appendix E- , the age and gender of the patients did not differ by tye of error.
Both the length of hospital stay and rate of monalty, however, increased in discharges incor­
rectly resequenced by the hospital.
FINANCIAL EFFECTS


After reabstraction , the average relative weight for DRG 89 discharges in this sample dropped
from 1.0914 to 1.0627. For the 351 discharges in this sample, this equalled an aggrgate drop
in relative weight of 10. 0737. Based on standardized amounts for reimbursement in 1985
($2985 urban and $2381 rual), the average change in relative weight for discharges assigned
to DRG 89 resulted in average overpayments to hospitals of $113 (small hospitals), $26 (mid­
sized) and $31 (large) on each discharge paid as DRG 89.

                                           Overpayment trends
                       $ million




                                                                                     Total overpayment




                             1984   1985     1986     1987       1988   1989   198
                                                    Fisl Year





When extrapolated to the entire Medicare population, assuming a constant rate of errors,
miscodng of DRG 89 resulted in $16. 5 millon of overpayments in FY 1985. Most of the
overpayments went to small hospitals, which had both a higher rate of discharges to DRG 89
and a higher rate of codg errors. Estimates indicate that , without corrective action, overpay­
ments wil rise to $35. 6 millon by FY 1990.


CORRECT DRG ASSIGNMENTS


Of the discharges incorrectly assigned to DRG 89, 59. 7 percent came from the same Major Di­
agnostic Category (MDC): 04        diseases and disorders of the circulatory system. Indeed
41. 3 percent of the errors grouped to a single DRG: 96    bronchitis and asthma. DRG 96
has a substatially lower relative weight for puroses ofreimbursement (0. 7913). As noted,
simple diagnostic measures readily distinguish patients with pneumonia from cases of bronchi­
tis, asthma, or combinations of these conditions. The remainder of correct DRG assignments
spread among 21 alternative DRGs grouped in nine MDCs.
It appears that a substantial portion of the errors in assignment for "pneumonia and pleurisy
resulted when physicians identified a simlar but incorrect respiratory or infectious disease
the principal diagnosis on the attestation sheet. Discharges from small hospita , and from
rual and nonteaching facilities, which may lack the knowledge or resources to perform com­
plete diagnostic workups accounted for most of these errors and overpayments. In addition
physicians, as well as medical records personnel , in these smaller and less well-equipped hos­
pitals may be less well-trained in the correct procedures for identifying the principal diagno­
sis.

Only one- quarer of discharges correctly assigned to DRG 89 exhibited ICD- CM codes that
specified the pathogen responsible for the infection (e. , 481: pneumococcal pneumonia,
482. 2: H. influenza pneumonia, streptococcal pneumonia). Two-thirds of discharges failed to
specify the organism causing the pneumonia (e. g., 486: Pneumonia not otherwiSe specified
54. 9 percent. 485: Bronchopneumonia not otherwise specified, 11.6 percent) suggesting that
the attending physician either did not wrte down adequate information or did not order tests
which would identify the responsible organism.

This inadequate diagnosis of pneumonia implies in   tu   that the attending physician treated
the patient with no notion of the causal organism. Different bacteria require contrasting ther­
apy. The higher mortality rate among discharges correctly assigned to DRG 89 may reflect
this diagnostic inadequacy. Both accurate payment and adequate clinical care therefore mili­
tate against accepting the non-specific diagnosis of pneumonia. Possibly, ICD- CM code
468: Pneumonia , organism not otherwise specified, should be removed from DRG 89 and
placed in a DRG with a lower relative weight. For such a highly weighted DRG, hospitals
should have to expend the resources necessar for proper diagnosis and treatment.


CLINICAL REVIEW RESULTS


Only 4. 0 percent of discharge weighted cases did not require hospital admission upon review
by physicians (" an admssion in which the care received by the patient was either not needed
or did not require the use of the inpatient setting ). This rate of unnecessar admssions signif­
icantly improves upon the 10. 0 percent for the National DRG Validation Study controlling for
bed sire (Mantel- HaenszeI17. 5, 1 df, po:O. 0001). Appendix H- l shows the rate ofinappropri­
ate admssions to be similar across hospital bed size. Physician reviewers found 1. 5 percent of
discharges to be premature; more than twice the rate of the National DRG Validation Study,
but nonsignificant (Mantel-Haenszel1.07, 1 df, p=0.30).
                                              Clinical review
                    Rate (percent)



                                                                                                   DRG 89



                                                                                              (Z   All DRGs




                               Unneeded admissions Poor   quality care Premalure discharges


Physician reviewers judged 9.6 percent of DRG 89 discharges to evidence " quality of care not
meetig professionally recognized stadards. " Although almost twice the rate of poor quality
care concerns identified in the entie National DRG Validation Study sample, this difference
proved nonsignificant when controlling for bed size (Mantel- Haenszel1.88, 1 df, p=0. 17). In
both samples, quality of care problems occured paricularly often in discharges from smal
hospitals and the frequency of problems was approximately the same. The samples diered,
however, in the extent of problems at mid-sized and large hospitals. Among these hospitals,
poor quality of care occured much more frequently in discharges assigned to DRG 89.
                              RECOMMENDATIONS

     The Health Care Financing Admnistration should diect  the PROs to educate hospitals
     and physicians about distinguishing between (1) pneumonia and (2) bronchitis-asthma
     as principal diagnoses.


     The HCFA should review the high rate of non-specific ICD- CM codes 485 and 486 in
     DRG 89 bils.

The HCFA concurs with these recommendations.
              Appendix A- 1: DRG 89             discharges from PPS hospitals

Fiscal Year                             1984                 1985                  1986                        1987

                                        1.1   029              0914              1 .1194                      1 . 1657
Relative weight
Number of discharges                   148,485              288 067             341 622                      327 645
Total charges ($ milion)                 643.                 412.4                922.                         047.
Total reimbursement ($ million)          388.                 807.                 005.4                        017.4
Average reimbursement ($)                  617                  805                  929                            105




                           Appendix A- 2: DRG 89 sampling                  frame

Number of discharges                                        ed s
                                        oe 100              100- 299              300+                         Total

Medicare population                           173           95, 085             95, 808                       288 067
Sampling frame                                176            2,481                  593                           250
Sample                                        182                                                                    351

Sampling fraction (%)                    (15.                  (3.                 (1.                              (4.




                      Appendix A- 3: DRG 89 hospital                   demography
                            Bed size                                              Wei     hted             ortion
                  oe 100    100- 299   300+         Total              Sample            Discharge             Hospital

Number of discharges

 Urban                                               150                 (55.                     (55.               (41.
 Rural             163                               201                 (44.                     (44.4)             (58.

Teaching                                                                 (21.                     (21.               (13.
Nonteaching        181                               298                 (78.4)                   (78.               (87.

 Profit                                                                   (9.                      (9.                (9.
 Nonprofit         171                               321                 (91.                     (91.               (90.

 Total             182                               351                (100.                    (100.              (100.
               Appendix A-4: DRG 89 hospital                          demography comparison
Percent                                                                               ted Drooort
distribution                        c:100         100-299       300+        Sample   Discharge      Hospital

Urban              DRG 89           10.4           64.          92.           55.        55.          41.
                  NDRGVS            19.            70.          94.           62.        71.          48.

Rural              DRG 89           89.            35.                        44.        44.4         58.
                  NDRGVS            80.            29.                        38.        28.          52.

Teaching           DRG 89                          15.4         48.           21.        21.          13.
                  NDRGVS                           18.          55.           25.        31.          16.

Nonteaching        DRG 89           99.            84.          51.           78.4       78.          87.
                  NDRGVS            97.4           81.          44.           74.        68:2         83.

Profit             DRG 89                          19.
                  NDRGVS                           17.                                     9.4         10.

Nonprofit          DRG 89           94.            80.          98.           91.        91.          90.
                  NDRGVS            90.            82.          97.           90.        90.          89.




                     Appendix A- 5: DRG 89 patient                        demography
                                      Bed size                                       hte d a
                            c:100     100- 299           300+               Sample   Discharge      Hospital

Age (years)                 79.             75.          75.                 76.         76.           77.4
Sex (% male)                50.             51.          50.                 50.         50.           50.
LOS (days)
Payment ($)                 1908          2828           3201                2646       2642           2412
Mortality (%)                                                                                            7.4
              Appendix A- 6: DRG 89 patient               demography comparison
                                         Bed size                                   ave
                             0:   100    100- 299       300+          Sample    Discharge   Hospital

Age (years)       DRG 89          79.       75.         75.            76.         76.        77.4
                 NDRGVS           76.       74.         72.            74.         73.        74.

Sex (% male)      DRG 89          50.       51.         50.            50.         50.        50.
                 NDRGVS           43.       45.4        48.            45.         46.        44.

LOS (days)        DRG 89
                 NDRGVS                       7.4

Payment ($)       DRG 89          1908     2828         3201           2646       2642        2412
                 NDRGVS           1849     2923         3807           2860       3115        2508

Mortality (%)     DRG 89                                                                        7.4
                 NDRGVS                                                             6.4




                              Appendix B- 1: DRG 89 errors

                            Bed size                                             hted avera
                    0:100   100- 299         300+             Total   Sample    Discharge Hospital

Number of errors (Percent of discharges)

Urban             5 (26.    10 (16.        11 (15.                     (19.       (19.        (21.
Rural            33 (20.         (9.4)          (0.                     (9.        (9.        (13.

Teaching              (0.    2 (14.         9 (23.                     (12.       (12.         (8.4)
Nonteaching      38 (21.    11 (14.               (5.                  (13.       (13.        (16.

Profit             4 (36.    2 (11.               (0.                  (15.       (15.        (22.
Nonprofit        34 (19.    11 (15.        11 (14.                     (16.4)     (16.        (17.

Total             38 (20.   13 (14.        11 (14.                     (16.4)     (16.        (17.
                    Appendix B-2: DRG 89 error rate                            comparison
Error rate                                                                                    ed ave aae
                                     c:1 00         100-299        300+         Sample       Discharge Hospital

Urban             DRG 89             26.             16.           15.            19.           19.        21.
                 NDRGVS              22.             19.           16.            18.           17.        20.4

Rural             DRG 89             20.              9.4                                                  13.
                 NDRGVS              23.             16.           22.           21.            20.        21.

Teaching          DRG 89                             14.           23.            12.           12.         8.4
                 NDRGVS              20.             20.           15.            17.4          17.        19.

Nonteaching        DRG 89             21.            14.                          13.           13..       16.
                 NDRGVS               23.            17.           17.            20.           19.        20.

Profit            DRG 89              36.            11.                          15.           15.        22.
                 NDRGVS               23.            18.           18.            20.           19.        21.3

Nonprofit         DRG 89              19.            15.           14.            16.4          16.        17.
                 NDRGVS               23.            18.4          16.            19.4          18.        20.

Total             DRG 89              20.            14.           14.            16.4          16.        17.
                 NDRGVS               23.            18.           16.            19.           18.        20.




              Appendix B- 3: DRG 89 errors                               by patient demography

                                        Bed   ize                                        Wei hte avera
                            c:1 00      100- 299            300+               Sample        Discharge   Hospital

Age           Correct       79.               74.           75.                  76.            76.         77.
(years)      Incorrect      78.               81.           75.                  78.4           78.4        78.

Sex           Correct       50.               55.           53.                  53.            53.         52.
(% male)     Incorrect      47.4              38.           27.                  37.            37.         41.

LOS           Correct
(days)       Incorrect                         9.4          10.

Payment       Correct       1831            2791            3096                2573            2568        2344
             Incorrect      2200            3054            3838                3031            3027        2737

Mortality     Correct        10.4
             Incorrect
                      Appendix C- 1:          DRG 89 direction of error

                            Bed size                                     Wei hte d o ooo rtion
                   c100     100- 299     300+           Total   Sample        Discharge          Hospital

Number of overpayments (Proportion of errors)

Urban           5 (100.      7 (70.     9 (81.                  (83.             (84.             (87.
Rural              (93.     3 (100.            (0.              (64.             (64.             (81.

Teaching             (0.     2 (100.    7 (77.                  (59.             (58.             (44.
Nonteaching    36 (94.       8 (72.     2 (100.                 (89.             (89.             (88.

Profit          4 (100.         (50.           (0.              (50.                 (50.         (67.
Nonprofit      32 (94.       9 (81.     9 (81.                  (85.                 (85.         (88.

Total          36 (94.      10 (76.     9 (81.                  (84.                 (84.         (86.




              Appendix C- 2:       DRG 89 direction of error comparison
                                        Bed size                        Wei   hted           ortion
                               c100     100- 299      300+      Sample        Discharge          Hospital

Overpayments as a proportion of all errors

Urban            DRG 89        100.          70.     81.          83.                 84.             87.
                NDRGVS          53.          60.4    57.          58.                 57.             56.

Rural            DRG 89         93.      100.                     64.                 64.             81.
                NDRGVS          66.       57.         65.         64.                 62.             63.4

Teaching         DRG 89                  100.         77.         59.                 58.             44.
                NDRGVS          66.       59.         56.         57.                 59.             62.

Nonteaching      DRG 89         94.          72.     100.         89.                 89.             88.4
                NDRGVS          64.          59.      59.         61.                 60.             61.

Profit           DRG 89        100.          50.                  50.                 50.             67.
                NDRGVS          68.          55.      63.         60.                 61.             63.

Nonprofit        DRG 89         94.          81.      81.         85.                  85.            88.
                NDRGVS          63.          60.      57.         60.                  59.            61.

Total            DRG 89         94.          76.      81.         84.                  84.            86.
                NDRGVS          64.          59.      57.         60.                  59.            61.
(%)
($)




        Appendix C- 3:      DRG 89 direction of error by patient demography
                                          ed s ize                           Wei hte avera
                               0:100     100-299       30+           Sample         Discharge         Hospital

Age             Overpaid        77.       81.          78.             79.                  79.             79.
(years)        Underpaid        82.       79.          65.             75.                  75.             78.

Sex             Overpaid        47.       40.          33.             40.                  40.             42.
(% male)       Underpaid        50.       33.                          27.                  27.             36.

LOS             Overpaid                   10.4
(days)         Underpaid                               27.             13.                  13.             10.

Payment         Overpaid       2232       3178         3709           3040              3036            2774
               Underpaid       1629       2640         4418           2896                  289.        2399

Mortality       Overpaid                   10.
               Underpaid




            Appendix D- 1: DRG 89 hospital                   department making error

                             Bed size                                         Wei    hted          ortion
                   0:100     100- 299      300+              Total   Sample         Discharge          Hospital

Number of coding department errors * (Proportion of errors)

Urban            5 (100.     8 (80.     10 (90.                       (90.              (90.4)          (92.
Rural           33 (100.     3 (100.             (0.                  (66.              (66.            (84.

Teaching              (0.       (50.     8 (88.                       (46.              (46.            (30.
Nonteaching     38 (100.    10 (90.      2 (100.                      (97.              (97.            (97.

Profit           4 (100.     2 (100.             (0.                  (66.              (66.            (84.
Nonprofit       34 (100.     9 (81. 8) 10 (90.                        (90.              (91.            (92.

Total           38 (100.         (84.   10 (90.                       (91.              (91.            (93.

* Balance of errors made by biling department
  Appendix D-2: DRG 89 hospital department making error comparison

                                            ed s ize                     Wei    ed crooort ion
                                c:100      100- 299     300+    Sample         Discharge    Hospital

Coding department errors as proportion of all errors

Urban            DRG 89        100.         80.         90.       90.             90.4           92.
                NDRGVS          89.         88.         90.       89.             89.            89.

Rural             DRG 89       100.        100.                   66.             66.            84.
                NDRGVS          94.         95.         90.       94.             93.            94.

Teaching          DRG 89                    50.         88.       46.             46.            30.
                NDRGVS              91.     92.         89.       90.                            91.

Nonteaching      DRG 89        100.         90.        100.       97.             97.            97.
                NDRGVS          93.         90.         92.       92.             91.            92.

Profit           DRG 89        100.        100.                   66.             66.            84.
                NDRGVS          86.         92.4        81.       89.             86.            87.4

Nonprofit         DRG 89       100.         81.         90.       90.             91.            92.
                NDRGVS          94.         90.         90.       92.             91.4           92.

Total            DRG 89        100.         84.         90.       91.             91.            93.
                NDRGVS          93.         90.         90.       91.             91.            92.




    Appendix D- 3: DRG 89 hospital                  department making error by patient
                                             demography
                                           Bed size                      Wei hted avera
                               c:   100    100-299      300+    Sample         Discharge    Hospital

Age                Coding           78.      80.        76.       75.             78.            78.
(years)             Billng                   84.        69.       51.             50.            38.

Sex                Coding           47.4     36.4       30.       37.             38.            41.
(% male)            Billng                   50.                  16.             16.            16.

LOS                Coding                               10.
(days)              Billng                              13.

Payment            Coding       2200        2867       3993      3020            3017            2701
                    Biling                  4080       2284       2121           2106            1691

Mortality          Coding
                    Billng
                      Appendix E- 1: DRG 89 reasons                     for errors

                                            Bed      ize
                                c: 100          100- 299   300+           Total          (Percent)

Mis-specification

Principal diagnosis                                                                         (66.
Secondary diagnosis                                                                          (4.
Miscoding                                                                                    (0.
Resequencing                                                                                (22.
Other                                                                                        (6.

Total                                                                                      (100.




    Appendix E- 2:       DRG 89 reasons for errors by hospital demography

                           Mis-specification               Miscoding     Resequencing                 Other

Number (Proportion of errors)

c: 100 beds                              (73.                     (0.             (26.                  (0.
100- 299 beds                            (61.                     (0.             (15.4)             3 (23.
300+ beds                                (72.                     (0.             (18.                  (9.

Urban                                    (65.4)                   (0.             (19.               4 (15.4)
Rural                                    (75.                     (0.             (25.                  (0.

Teaching                                 (63.                     (0.             (18.               2 (18.
Nonteaching                              (72.                     (0.             (23.                  (3.

Profit                                   (66.                     (0.             (33.                  (0.
Nonprofit                                (71.4)                   (0.             (21.4)                (7.

Total                                    (71.                     (0.             (22.                  (6.
                Appendix E- 3: DRG 89 reasons for             errors comparison

                                       Bed size                                  hte d   DroD ortion
                             0(100     100- 299    300+           Sample        Discharge         Hospital

M isspeci-          DRG 89    73.           61.    72.             69.                   69.           69.
fication           NDRGVS     49.           44.    49.4            48.                   47.           48.

Miscoding           DRG 89
                   NDRGVS     10.4          14.     11.4           12.                   12.           11.

Resequencing        DRG 89    26.           15.4   18.             20.                   20.           21.
                   NDRGVS     31.           24.    24.             26.                   25.           28.

Other               DRG 89                  23.                    10.                   10.
                   NDRGVS                   15.     14.            12.                   13.           11.




      Appendix E-4: DRG 89 reasons for errors by patient demography
                                    Narrative      Miscoding       Resequencing                    Other

Age (years)                           79.                                76.4                          76.
Sex (% male)                          40.                                42.                           50.
LOS (days)                             6.4                               11.
Payment ($)                          2602                                2745                          3152
Mortality (%)                                                            14.




                  Appendix F- 1: DRG 89 corrected relative weights
Average relative                                     Bed s
weight                                     0(100     100- 299             300+                  Average

Paid                                       0914            0914           0914                         0914
Correct                               1.   0452            0819           0810                         0627
Difference                                 0462            0095           0104                         0287

Total relative weight                                                                                  Total

Paid                                198. 6348         99. 3174       85. 1292                  383. 0814
Correct                             190. 2264         98.4529        84. 3180                  373. 0077
Difference                            8.4084              8645           8112                   10. 0737
                         Appendix F- 2: DRG 89 corrected reimbursement
Average                                                            Bed s
                                                    c:1 00        100- 299     300+           Average

Paid                                                 667              026        207                  881
Correc                                               554              999        177                  805
Diference                                             113

Total $                                                                                          Total

Paid                                             485,427          275, 347   250, 151         011 317
Correct                                          464,878          272 950    247 768          984 723
Difference                                        20, 549             397         384          26, 594

Overpayment rate (%)




                          Appendix F- 3: DRG 89 projected cost of errors
Fiscal Year                                    Reimbursement                            Overpayment
                                                   ($ milion)                            ($ milion)

1984                                                 388.
1985                                                 807.                                  16.
1986                                                 000.                                  20.
1987                                                 017.4                                 20.
1988 est.                                            323.                                  27.
1989 est.                                            531.                                  31.
1990 est.                                            739.                                  35.

   Overpayment is calculated             as   0 percent of reimbursement.
Estimates are based            on   linear regression.
              Appendix G- 1 : Correct MDCs for DRG 89 errors

                                               d size

                                  0:100     100-299      300+   Total   (Percent)

      Ear, Nose & Throat                                                   (6.
      Respiratory                                                        (59.
      Circulatory                                                         (6.
      Digestive                                                           (1.
      Musculoskeletal                                                      (4.
      Skin and Breast                                                      (1.
      Endocrine and Metabolic                                              (4.
      Kidney and Urinary Tract                                             (1.
      Infectious Diseases                                                 (11.
      Injury, Poisoning & Drugs                                            (1.

      Total                                                             (100.




              Appendix G- 2: Correct DRGs for DRG 89 errors


                                  0: 1 00   100- 299     300+   Total   (Percent)

      Bronchitis & asthma                                                 (40.
      Otitis media & upper                                                 (6.
         respiratory infections
127   Heart failure & shock                                                (6.
421   Viral ilness                                                         (6.
      Respiratory infections &                                             (4.
         inflammations
      Chronic obstructive                                                  (4.
         pulmonary disease

      Subtotal                                                           (69.4)
      Other                                                              (30.
      Total                                                             (100.
          Appendix G- 3: ICD-               CM codes from correct DRG 89 bils

ICD-           Disease                                       Number           Percent

480.           Unspecified viral pneumonia                                       1.4
481            Pneumococcal pneumonia
482.           Hemophilus influenza pneumonia
482.           Streptococcal pneumonia
482.           Other specified pneumonia
482.           Unspecified bacterial pneumonia
483            Other specific pneumonia
485            Unspecified bronchopneumonia                                     11.
486            Unspecified pneumonia                          160               55.4
487.           Influenza with pneumonia
511.           Pleurisy




                            Appendix H- 1:              DRG 89 clinical review

                                Bed size                                       Wei hted avera
                      c:1 00   100- 299      300+           Total     Sample          Discharge           Hospital

Number (Rate)

Unnecessary         7 (3.         (4.4)    3 (3.                        (4.                  (4.           (4.
admissions

Poor quality      20(11.       8 (8.       7 (9.                        (9.                  (9.          (10.
of care

Premature           4 (2.      2 (1.       1 (1.                        (1.                  (1.           (1.
discharge




                 Appendix H- 2:           DRG 89 clinical review comparison

Rate                                        Bed  ize                                  hted         vera
                                 c: 100     100-299         300+       Sample         Discharge           Hospital

Unnecessary        DRG 89                          4.4
admissions       NDRGVS            12.            10.                   10.                  10.            11.

Poor quality       DRG 89          11.                                                                      10.
of care          NDRGVS            11.4

Premature          DRG 89
discharge         NDRGVS                                     0.4                                             1.4
